                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A07120068
                                                                              11           Page 1 of 1



          We investigated an allegation that the subject' had plagiarized a small amount of text into her
    NSF proposal.2 We wrote to the subject to get her perspective on the matter.

             In her response, the subject indicated she had permission to use some of the text but
    concurred that other portions of the text were not effectively paraphrased. Given the small amount
    of text involved, we wrote a letter to the subject reminding her of the need to exhibit proper citation
    practice.

           Accordingly, this case is closed.
